                                  EVALUATION




 MANAGEMENT OF SOCIAL SERVICES IN
 BIA: OPPORTUNITY FOR ACTION




Report No.: WR-EV-BIA-0001-2012      March 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                              MAR 1 8 2013
Memorandum

To:            Kevin K. Washburn
               Assistant Secretary - In

From:          Mary L. Kendall
               Deputy Inspector Gene

Subject:       Final Evaluation Report- Management of Social Services in BIA:
               Opportunity for Action
               Report No. WR-EV-BIA-0001-2012

        This memorandum transmits the results of our final evaluation of the management of
social services in the Bureau of Indian Affairs (BIA). Our review concluded that social services
to Indians are hindered due to unclear guidance, performance standards, and roles and
responsibilities.

        We initially planned to determine the extent to which these problems existed and to
identify likely remedies. We found, however, that BIA has an organizational streamlining effort
underway, which intends to reduce staff, consolidate and close offices, and adjust funding across
the Bureau. We believe the effort will likely impact social service programs.

        Our report made seven recommendations to strengthen BIA's management of social
services. The Indian Affairs' February 4, 2013 response (Appendix 3) indicated concurrence
with six of the seven recommendations. Based on that response, we consider Recommendations
1 through 5 and 7 resolved but not implemented. We will refer these recommendations to the
Assistant Secretary for Policy, Management and Budget to track their implementation. We
request reconsideration of and provide additional information concerning Recommendation 6.

       We conducted this evaluation in accordance with "Quality Standards for Inspections" by
the Council oflnspectors General on Integrity and Efficiency. We believe that the work we
performed provides a reasonable basis for our conclusions and recommendations.

       We respectfully request a written response to this report within 30 days. The response
should provide information detailing actions taken or planned specifically to address
Recommendation 6, as well as the officials involved and target dates for implementation.




                               Office of Inspector General I Washington, DC
       Please address your response to —

       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections, and Evaluations
       U.S. Department of the Interior
       Office of Inspector General
       Mail Stop 4428
       1849 C Street, NW.
       Washington, DC 20240

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions about this report, please contact me at 202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings................................................................................................................... 5
   Nonexistent Guidance ......................................................................................... 5
   Unclear Roles and Responsibilities ..................................................................... 6
   Undefined Program Performance ........................................................................ 8

Conclusion and Recommendations ....................................................................... 11
   Conclusion......................................................................................................... 11
   Summary of Recommendations ........................................................................ 11

Appendix 1: Scope and Methodology................................................................... 14
   Scope ................................................................................................................. 14
   Methodology ..................................................................................................... 14

Appendix 2: Sites Visited ..................................................................................... 15

Appendix 3: BIA Response .................................................................................. 16

Appendix 4: Status of Recommendations ............................................................. 21
Results in Brief
The Bureau of Indian Affairs (BIA) funds tribal social services programs in the
form of direct services or through contracts or other agreements that allow tribes
to administer social services to members. Program funding for direct services and
contracts is approximately $137 million annually. More than half ($75 million)
goes toward welfare assistance; the remaining funds are applied to staffing and
support.

To help improve BIA operations, including social services, BIA contracted for
independent studies in 1999 and again in 2012. The two reports that resulted from
these contracts revealed a history of inadequate communication throughout BIA.
These communication issues, as identified by the reports, pertained to inconsistent
or obsolete guidance, unclear roles and responsibilities, and inadequate
performance standards in BIA. The Office of Inspector General found much the
same when we evaluated BIA’s social services program—unclear guidance,
performance standards, and roles and responsibilities, which undermined
fulfillment of duties throughout the Bureau.

We found inadequate communication among managers, staff, and tribes, which
was demonstrated by the absence of clear instructions for data calls, inability to
share social service information across all necessary BIA social service channels,
and non-responsiveness to welfare assistance applicant funding requests. Such
inadequate communication has hindered effective functioning of social services. It
also diminished our ability to determine if BIA’s social service program was
effectively administered, if cases were adequately managed, if Bureau-level social
services data were accurate or reliable, and if tribal members applying for social
services were receiving what they needed.

We planned to conduct an evaluation to determine the extent to which these
problems existed and to identify likely remedies. We found, however, that BIA
has a major organizational streamlining effort underway that will continue into
fiscal year 2013. The intention of the effort includes reducing staff, consolidating
and closing offices, and adjusting funding across BIA. Given the scale of this
streamlining effort, we believe BIA could benefit from the findings and
recommendations in this report, and we are therefore providing our data early,
with the intention of benefitting BIA’s streamlining process.

Our recommendations focus on updating social services guidance and ensuring
that such guidance is consistently available through the creation of a one-stop
communication area, such as a dedicated Web site, from which all BIA staff and
tribal members can determine where to get needed information and technical
services. We also recommend the development of an outcome-based performance
approach, which not only would clarify roles and responsibilities at all levels of
BIA but also would define expected outcomes. Such actions, we believe, could



                                                                                   1
help diminish communication issues, reveal areas of duplication and inconsistent
practices, and assist BIA as it undergoes its current organizational streamlining.




                                                                                     2
Introduction
Objective
Determine if the Bureau of Indian Affairs (BIA) has established well-defined
roles and responsibilities to deliver social services programs and if it has
effectively communicated them, along with providing adequate support and
oversight, to BIA-managed or tribally contracted social services programs (see
Appendix 1 for report scope and methodology).

Background
According to the BIA budget justification, the Bureau provides or funds social
services to improve the quality of life for individual Indians who live on or near
Indian reservations and to protect children, the elderly, and the disabled from
abuse and neglect. About 1.9 million individuals who are members of the 566
recognized tribes have access to social services programs, such as welfare and
child assistance. These services are critical because of factors ranging from high
unemployment to child abuse.

Unemployment rates are high in Indian communities. BIA cited a 49 percent
unemployment rate in a 2005 report 1. Of those who were employed, 33 percent
earned wages below the poverty level. One tribe we visited reported 76 percent
unemployment. Rural isolation, low wages, and lack of economic development in
Indian Country contribute to high unemployment. Furthermore, National studies
indicate that children in families living at or below National poverty levels are at a
higher risk of removal from their homes due to abuse and neglect. This affects the
approximately half million Indian children aged 16 or younger.

BIA social services funding, used to help ameliorate these issues, is included in
the Bureau’s human services budget component. In 2011, the human services
budget identified $75 million for direct welfare assistance to individuals. This
money covered general, child, emergency, and burial assistance, as well as adult
custodial care. Social services funding for administrative staffing, support, and
oversight totaled $49 million.

Social services funding reaches individuals either directly from BIA through its
network of agency offices or through tribes that elect to enter into formal
agreements with BIA to provide services to their members. The BIA regional
offices provide oversight and training to BIA agency offices and tribal offices that
perform daily social services activities. These include assessing individual and
family eligibility and need, processing case plans, distributing welfare assistance,
responding to child abuse and neglect allegations, managing supervised Individual

1
  As required by Public law 102-477, the Department of the Interior is supposed to produce a report, not less
than biennially, on the American Indian and Alaska Native population and labor force, which includes but is
not limited to those eligible for services by gender, age, availability for work, and employment. BIA last
published this report in 2005.


                                                                                                            3
Indian Monies accounts, 2 and working with local law enforcement. To ensure
qualification for BIA social services financial assistance, BIA staff first assists
clients to complete applications from other local, state, or Federal assistance
sources to ensure that applicants do not qualify for any other programs before
requesting BIA funds.

BIA has longstanding problems with its administrative structure, as documented
by independent reports issued in 1999 and in 2012. 3 Both documents revealed that
BIA had inconsistent or obsolete guidance, unclear roles and responsibilities, and
inadequate performance standards.

In 2012, BIA initiated an organizational streamlining plan to significantly
downsize its workforce. This effort will be completed in fiscal year (FY) 2013
and is expected to reduce staff, consolidate and close offices, and adjust funding.
These broad-range changes will undoubtedly impact social services, although the
extent of the impact is not yet known.




2
 These accounts were established for minors and others needing assistance.
3
 “A Study of Management and Administration: The Bureau of Indian Affairs by the National Academy of
Public Administration” in 1999 and “U.S. Department of Interior – Indian Affairs Final Report: Examination,
Evaluation, and Recommendations for the Support Functions” by Bronner Group, LLC, in 2012.




                                                                                                         4
Findings
We initially sought to determine whether BIA or tribes have effectively
implemented and complied with all applicable social services laws and internal
policies. After visiting their offices, however, we refined our objective to
determine whether BIA had established clearly defined roles and responsibilities
to deliver social services programs, if it had effectively communicated them, and
if it had provided adequate support and oversight to BIA-managed or tribally
contracted social services programs. When we learned of BIA’s organizational
streamlining plan and its anticipated impacts, however, we decided to report what
we had learned to date and offer recommendations that might prove helpful
during the Bureau’s streamlining efforts.

The BIA official leading the streamlining effort told us that he did not know how
the resulting changes from streamlining would affect the delivery of social
services. His primary focus, he said, was on meeting the number of early outs or
buyouts needed, then letting the regions determine how to manage the resulting
changes. BIA calculated that streamlining goals could be met if 300 fulltime
employees took an early out or buyout, and if office, staffing, and program
consolidations were made. The current streamlining effort resulted from a
$14.5 million budget reduction in BIA’s FY 2013 budget justification.

Nonexistent Guidance
BIA and tribal social services staff prepare, authorize, and document various
social services activities as part of their daily activities. Some tribes reported
frequent vacancies and staff turnover in social services programs and mentioned a
need for BIA to provide basic guidance and supporting materials to ensure
continuity of services throughout tribal communities. We found, however, that no
current standard guidance exists for BIA social services programs.

The most recent version of BIA’s manual section on social services expired
during the 1990s and has not been updated. Not only is the section outdated, but
significant regulatory changes occurred in 2000 that further render the manual
obsolete.

BIA agency and regional offices and tribes have resorted to using relevant Code
of Federal Regulations (CFR) sections, previous training material, or their own
versions of guidance to administer the social services program. One regional
official explained that the CFR alone is insufficient because State requirements
also must be followed. He further stated that having updated standard procedures
for social services would be a “great achievement.” Staff at another regional
office echoed the need for a new social services procedures manual. BIA’s
headquarters office considers each office unique in its staffing and demographic
structure, and therefore does not foresee generating Bureau-wide social services




                                                                                    5
guidance. We believe, however, that a common level of guidance is relevant to all
social services program activities.

 Recommendation

    1. We recommend that BIA update its Bureau manual to include
       minimum requirements for delivering social services and that the
       manual be used across regions and offices to standardize delivery
       systems.


Unclear Roles and Responsibilities
Providing a clear definition and understanding of the various roles and
responsibilities of BIA and tribal management and staff is critical to effective
direction and execution of social services programs. Clear roles and
responsibilities help all parties understand what is expected of them and prevent
misunderstandings that may inhibit the effective, consistent delivery of social
services to those in need.

We found that BIA social services roles and responsibilities are not standardized.
Technical support is one area where roles and responsibilities remain unclear, as
demonstrated by BIA’s social services contracts with tribes. The contracts, or
annual funding agreements, state that BIA will provide technical support with
social services issues as needed. Contrary to these agreements, we uncovered
reports of insufficient or nonexistent technical support. In some cases, tribes could
wait up to 3 weeks before receiving a response, or they might receive no response
at all. One tribe remarked, “It is sink or swim out here.” As a result of past
difficulties, this tribe does not communicate with the BIA regional office unless
absolutely necessary.

We also found that BIA staff provided inconsistent support to tribes across
regions, with some regional staff spending more time with tribes than other
regions. Some tribes reported positive relationships with BIA, including one tribe
that had regular contact with its BIA agency office and received monthly in-
person visits. On the contrary, several tribes we visited seemed to have
contentious relationships with BIA’s regional office officials, including one that
told us: “BIA does not freely provide information and knowledge, but they easily
make review [sic] criticisms.” In addition, we learned that, depending on the
region, some staff respond to tribal telephone inquiries more quickly than others.
Some BIA social services staff believe, however, that tribes under contractual
agreements should not request BIA support after they have contracted to provide
their own social services programs.

One tribe for whom BIA provides social services told us that they do not
understand the roles of the BIA agency office and the BIA regional office. This
tribe works with its local agency office, but has encountered interference from the


                                                                                    6
BIA regional office. In one instance, the agency made a decision to provide
services to a client, but the regional office heard about it and terminated the
action. The tribe felt the regional office made the wrong decision.

Staff of a BIA agency office that provides services to a tribe recounted a situation
when the agency decided to pay for a client’s treatment but the regional office did
not approve. The agency’s payments required regional office approval, but the
agency office did not understand why its superintendent did not have approval
authority. We were told that ultimately the agency’s superintendent overruled the
regional office and made the payment.

Inconsistency characterizes all aspects of BIA social services programs,
stemming, as stated earlier, from the absence of a manual that defines overall
roles and responsibilities. Such an observation also was noted in independent
contractors’ reports issued in 1999 and 2012. The 1999 report noted the absence
of up-to-date policies or manuals and stated: “[T]o gain discipline in the
workforce, individual employees need to understand the requirements of their
job.” The 2012 report noted: “Communication between divisions within Indian
Affairs is inconsistent or needs to be improved, as does the clarity of individual
roles and responsibilities for senior executives and managers.”

Another area of inconsistency is training, which varies across regions and across
tribes. Training may be either inadequate or nonexistent and include insufficient
advance notice. One tribe recollected only 1-day advance notice for a training
opportunity at the BIA regional office, located more than 100 miles away. The
tribal representative said that it is simply impossible for staff to adjust their
schedules and make travel plans on such short notice. This tribe also indicated
that the regional office used to invite all regional tribes to an annual meeting, but
now these helpful meetings are no longer conducted; the tribe did not know why.
On the contrary, another BIA regional office hosts 2 weeks of annual training for
its agency offices and tribes, and also incorporates Internet delivery methods for
other trainings to save on travel costs.

Anecdotal data from another tribe includes a report that it received only 1½ hours
of training from BIA when the tribe took over its social services program via a
new contract. The tribe considered this typical of the regional office’s attitude that
once a tribe contracts its own social service program they should not need support
from BIA.

Data calls are another area of inconsistency. A tribe generally knows what to
report to BIA, based on the terms of its contract. From time to time, however,
BIA makes unexpected data requests for information outside of contract
requirements and provides inadequate lead time to provide a response. One tribe
reported that BIA at times requests reports or information with very little advance
notice, which is a burden on the staff. It also noted that BIA did not respond to its
request for an explanation of how to complete the requested reports.



                                                                                        7
Of the various forms of communication (oral, written, interpersonal), perhaps the
most critical area for BIA to demonstrate clear roles and responsibilities is in the
area of effective written communication. BIA’s decisions concerning its manual
prevents this guidance document from being accessible to all levels of social
services providers, particularly when Internet tools make such documents globally
available and searchable. BIA’s current organizational streamlining efforts and its
anticipation of downsizing, repositioning, and consolidating work responsibilities
provide opportunities to clearly communicate the new and revised roles and
responsibilities expected of social service providers and users.

 Recommendations

 We recommend that BIA:

    2. Establish clearly defined roles and responsibilities for delivering social
       services when updating its Bureau manual;

    3. Create a training plan for tribes that addresses points of contact, roles
       and responsibilities, technical information and program administration;

    4. Specify reporting requirements in the contract and provide ample time
       to tribes when requesting additional data; and

    5. Create a central Internet “go-to” location where up-to-date
       information is regularly available to BIA regional and field offices and
       tribal office staffs on a regular basis.


Undefined Program Performance
As BIA streamlines its workforce, it needs to determine how to deliver future
social services programs. Current streamlining plans, however, do not address the
program level changes that it expects to make throughout the current and the next
fiscal years. We believe it is important that BIA benchmark social services
activities that are working effectively so that the benchmarked activities can be
modeled throughout the organization as it changes, downsizes, consolidates, and
relocates staff and services. We noted three promising practices that could help
BIA to deliver more clearly defined program performance.

We found that when a tribe contracts to provide social services previously
covered by its BIA agency office, the Bureau no longer maintains social services
staff expertise at that agency level. Although located at a greater distance from the
tribe, the regional office typically assumes this role. This seems to exacerbate
tribal/BIA communication problems. The Blackfeet Tribe encountered this
situation but, to its credit, the BIA Blackfeet Agency created a new role for itself



                                                                                    8
and now performs as a social services intermediary between the Tribe and BIA’s
regional office. The BIA Agency superintendent told us: “The agency is
committed to helping the Tribe succeed in the contract.”

Two other activities also seem worthy of consideration for widespread use. In the
first instance, BIA’s Crow Agency and Northern Cheyenne Agency chose to
participate as part of a differential response team 4 that included people from the
Federal Bureau of Investigations, the U.S. Attorney’s Office, tribal prosecutors,
tribal civil protection, and local medical personnel. The team defined its goal as
helping to stop the cycle of abuse at all levels of the tribe—within families as well
as among community members. Such an effort clearly fits the purpose of BIA’s
social services programs but it also uses the joint strength of other disciplines to
deliver responsive, coordinated, timely, and highly professional services.

In our second example, BIA’s Crow agency chose to address tribal issues by
incorporating an equine therapy program in its social services treatment options.
Equine therapy, a form of therapy in which individuals work with horses on a
daily basis to learn personal responsibility for themselves and others, can be
especially useful in a tribal setting where horses are a respected component of
cultural traditions. Such programs, in this case to reduce the impacts of drug
addiction, provide multiple levels of social service assistance for tribes.

These best practices, however, are juxtaposed against weaknesses in BIA’s ability
to report outcomes of social service program efforts. BIA social service programs
should have the capacity to evaluate service delivery to vulnerable tribal
populations through outcome monitoring based on performance targets. We
found, however, that BIA is unable to demonstrate program performance through
its current performance structure.

Performance measures need to be identified as outcomes of the three current
social services goals that BIA has identified under the Government Performance
and Results (GPRA) Modernization Act of 2010 to link budget dollars to agency
performance. Current BIA GPRA goals measure output and include percentage of
Individual Indian Money reviewed, percentage of recipients who complete goals
identified in individual self-sufficiency plans, and percentage of improvement in
processing Indian Child Welfare Act cases. 5

We found no evidence of outcome-based performance metrics that account for
improved welfare or health of tribal members as a result of social services


4
  Differential response is a Child Protective Service practice that allows for more than one method of initial
response to reports of child abuse and neglect. Also called "dual track," "multiple track," or "alternative
response," this approach recognizes variation in the nature of reports and the value of responding differently
to different types of cases.
5
  The Indian Child Welfare Act includes language that is intended to prevent the separation of Indian families
and assists in family reunification.




                                                                                                            9
programs. As a result, we were unable to assess whether social services funding is
helping the communities it is designed to serve.

 Recommendations

 We recommend that BIA:

    6. Benchmark those elements of its social services program that work
       well and can serve as a model to others; and

    7. Develop a performance plan that includes outcome-based goals and
        measures that can be used in its streamlining efforts and decision-
        making process and work with DOI’s Office of Planning and
        Performance Management to institute outcome-based performance
        measures for the social services program.




                                                                               10
Conclusion and Recommendations
Conclusion
BIA faces a significant challenge as it attempts to streamline its workforce by
FY 2013, following a proposed $14.5 million budget reduction that also will
impact its social services efforts. In a climate that values regional and tribal
independence, BIA has sanctioned administrative actions that change according to
regional and tribal authority but that also confuse recipients and administrators
alike because they lack consistent rules and regulations governing individuals and
activities. In such a climate, streamlining that establishes common processes and
simplifies procedures throughout Indian Country becomes challenging at best.

We believe that, to make the most of its current streamlining activity, BIA needs
to improve its Bureau-wide communications through consistent guidance
documents, a Web-based environment where this guidance is equally available to
all, and a way to capture or benchmark best practices that can help deliver the
social services programming identified in the Bureau’s performance plan. Our
evaluation was the third in more than 10 years to cite a need for improved
communications. Absent BIA’s improvement of its communication culture during
its streamlining efforts, the delivery of social services to tribal members will
continue to be hindered, as will BIA’s ability to accurately evaluate the quality of
social services it provides.

Summary of Recommendations
We recommend that BIA:

   1. Update its Bureau manual to include minimum requirements for delivering
      social services and that the manual be used across regions and offices to
      standardize delivery systems.

       BIA Response: BIA concurred with this recommendation.

       OIG Reply: We consider this recommendation resolved but not
       implemented.

   2. Establish clearly defined roles and responsibilities for delivering social
      services when updating its Bureau manual.

       BIA Response: BIA concurred with this recommendation.

       OIG Reply: We consider this recommendation resolved but not
       implemented.

   3. Create a training plan for tribes that addresses points of contact, roles and
      responsibilities, technical information and program administration.


                                                                                   11
   BIA Response: BIA concurred with this recommendation.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

4. Specify reporting requirements in the contract and provide ample time to
   tribes when requesting additional data.

   BIA Response: BIA concurred with this recommendation.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

5. Create a central Internet “go-to” location where up-to-date information is
   regularly available to BIA regional and field offices and tribal office staffs
   on a regular basis.

   BIA Response: BIA concurred with this recommendation.

   OIG Reply: We consider this recommendation resolved but not
   implemented.

6. Benchmark those elements of its social services program that work well
   and can serve as a model to others.

   BIA Response: BIA did not concur with this recommendation, stating that
   benchmarking was not appropriate due to the nature of program
   appropriations, lack of resources, and tribal cultural nuances.

   OIG Reply: We consider this recommendation unresolved and ask that
   BIA reconsider its response to this recommendation. We believe that
   benchmarking program elements that work well and can serve as a model
   to other tribal communities is an essential requirement of performance
   management. As BIA illustrated in its response to Recommendation 7, it
   has already committed to gathering baseline data in an effort to develop
   outcome-based goals and measures. Its data gathering efforts could serve
   to benchmark social service program successes.

7. Develop a performance plan that includes outcome-based goals and
   measures that can be used in BIA’s streamlining efforts and decision-
   making process and work with DOI’s Office of Planning and Performance
   Management to institute outcome-based performance measures for the
   social services program.

   BIA Response: BIA concurred with this recommendation.




                                                                              12
OIG Reply: We consider this recommendation resolved but not
implemented. As stated in the body of this report, we suggest that BIA
work with DOI's Office of Planning and Performance Management to
institute outcome-based performance measures for the social services
program.




                                                                         13
Appendix 1: Scope and Methodology
Scope
We performed our evaluation in accordance with The Council of the Inspectors
General on Integrity and Efficiency (CIGIE) Quality Standards for Inspections.
We believe that the work performed provides a reasonable basis for our
conclusions and recommendations. Our scope included all BIA region and agency
offices and all recognized tribes that received social services funding either
directly from BIA or through a contract agreement.

Methodology
To perform our review, we —

   •   reviewed all applicable laws, rules and regulations, and BIA policies
       related to social services;
   •   interviewed BIA and tribal officials regarding social services processes
       and policies; and
   •   visited the BIA central office, select regional and agency offices, and
       select tribal social services offices (see appendix 2).




                                                                                  14
Appendix 2: Sites Visited
              BIA Sites                   Tribal Sites
               Visited                      Visited


 Headquarters Office            Pyramid Lake Paiute Tribe of the
 Washington DC                  Pyramid Lake Reservation
                                Nixon, NV


 Pacific Regional Office        Paiute-Shoshone Tribe of the
 Sacramento, CA                 Fallon Reservation and Colony
                                Fallon, NV


 Western Region Office          Kiowa Tribe
 Phoenix, AZ                    Carnegie, OK


 Rocky Mountain Region Office   Cheyenne and Arapaho Tribes
 Billings, MT                   Concho, OK


 Western Nevada Agency          Seminole Tribe of Oklahoma
 Carson City, NV                Wewoka, OK


 Anadarko Agency                Blackfeet Tribe
 Anadarko, OK                   Browning, MT


 Blackfeet Agency               Navajo Nation
 Browning MT                    Window Rock, AZ


 Northern Cheyenne Agency       San Carlos Apache Tribe
 Lame Deer, MT                  San Carlos AZ


 Crow Agency                    Tohono O'odham Nation
 Crow Agency, MT                Sells, AZ




                                                                   15
Appendix 3: BIA Response
The Bureau of Indian Affairs’ response to our draft report follows on page 17.




                                                                                 16
                    United States Department of the Interior
                                  BUREAU OF INDIAN AFFAIRS 

                                     Washington, DC 20240 


                                         FEB 0 4 2013



Memorandum

To: 	            Kimberly Elmore
                 Assistant Inspector General for   Ciits, Inspections and Evaluations

From: 	
             r   Michael S. Black                V.A-_r_,_~
                 Director, Bureau of Indian Affairs

Subject: 	       Draft Evaluation Report - Management of Social Services in BIA: Opportunity
                 for Action Report No. WR-EV-BIA-0001-2012

Indian Affairs appreciates the opportunity to comment on the Office of Inspector General Draft
Evaluation Report - Management of Social Services in BIA: Opportunity for Action. Indian
Affairs provides the following response to the report 's recommendations.

Recommendation #1
We recommend that BIA update its Indian Affairs Manual to include minimum requirements for
delivering social services and that the manual be used across regions and offices to standardize
delivery systems,

Response:
Indian Affairs concurs with recommendation number 1.

The Division of Human Services in collaboration with the Office of Regulatory Affairs &
Collaborative Action will update the Indian Affairs Manual to include current program directives
including citations to regulatory and statutory requirements; policy directives; and
memorandums for the delivery of Social Services programs. The information will be uploaded
to the BIA internet at www.bia.gov.

Responsible Party: Chief, Division of Human Services
Target Date: August 31, 2013

Recommendation #2
Establish clearly defined roles and responsibilities for delivering social services when updating
its Bureau manual.

Response:
Indian Affairs concurs with recommendation number 2.
                                                                                               17
The Division of Human Services in collaboration with the Office of Regulatory Affairs & 

Collaborative Action will develop policy guidance that defines clearly the roles and 

responsibilities for delivering each of the social services programs. These updated role 

delineations will be included in the Indian Affairs Manual and on the BIA internet at 

www.bia.gov. 


Responsible Party: Chief, Division of Human Services 

Target Date: August 31, 2013 


Recommendation #3 

Create a training plan for tribes that addresses points of contact, roles and responsibilities, 

teclmical infonnation and program administration. 


Response: 

Indian Affairs concurs with recommendation number 3. 


The Division of Human Services and BIA Regional Social Workers will develop a standard 

training plan for staff of both tribally operated social services programs and BIA-operated 

programs. The training plan will address points of contact, technical infonnation and program 

administration. The training plan will incorporate both in-person training and web-based 

training options. 


Responsible Party: Chief, Division of Human Services 

Target Dates: Training Plan Developed: August 31,2013 

              Web Based Training Prepared: December 31, 2013
              Web Based Training Completed: April 30, 2014

Recommendation #4 

Specify reporting requirements in the contract and provide ample time to tribes when requesting 

additional data. 


Response: 

Indian Affairs concurs with recommendation number 4. 


The Division of Human Services in collaboration with the Indian Self-Detennination Office will 

develop a list of routine social service reporting requirements to be included in Indian Self­

Detennination Act (lSDA) contracts. This will include the reporting requirements for the 

Government Perfonnance Results Act, the Financial Assistance and Social Services Report 

(F ASSR) and the Indian Child Welfare Act (lCW A) annual report. BIA will negotiate with 

Tribes during annual ISDA contract negotiations to include the specific social services reporting 

requirements in their ISDA contracts. However, the BIA cannot force Tribes to include these 

provisions which are not in the model ISDA agreement. 25 U.S.C. § 450 l(a)(2). In addition, 

there are instances where data calls are made by the Congress, Office of Management and 

Budget, Federal Emergency Management Agency, or the Secretary of the Interior, and the 

timeframes for response by the Tribes are set by the requesting Agency and are outside the 

control of the BIA. The Division of Human Services will work with the Indian Self 
             18
Determination Office to develop language for (ISDA) contracts to cover unexpected data
requests.

Responsible party: Chief, Division of Human Services
Target Date: December 31, 2013

Recommendation #5
Create a central Internet "go-to" location where up-to-date information is regularly available to
BIA regional and field offices and tribal office staffs on a regular basis.

Response:
Indian Affairs concurs with recommendation number 5.

The Division of Human Services will begin utilizing the BIA website, www.bia.gov, as a "Go­
To" location for tribally-operated programs and BIA agencies to find current program
information on the various social services programs. The Division of Human Services will post
program policies and regulatory and statutory requirements of the programs on the website.

Responsible Party: Chief, Division of Human Services
Target Date: August 31, 2013

Recommendation #6
Benchmark those elements of its social services program that work well and can serve as a model
to others.

Response:
Indian Affairs does not concur with recommendation number 6.

The particular activities cited in the report are not appropriate for benchmarking. The Division
of Human Services received a special appropriation to support the development and
implementation of locally designed and tribally driven social services programs for
Methamphetamine prevention in one BlA region. It was anticipated the Division of Human
Services would receive, annually, additional appropriations under the same initiative to support
other Tribes developing their own programs, but this did not occur.

At this time, the Division of Human Services does not have the resources to support special
initiatives. The current appropriations received by Tribes are used to support the administrative
costs of operating the social services programs. The funding just provides for minimal staffing
and limits the flexibility for the Tribes to develop innovative programs such as those described in
the report. Additionally, the results cited in the report could potentially mislead the public to
believe that the specialized programs can be replicated without additional financial resources.

Finally, to benchmark these programs that were designed by individual Tribes and attempt to
apply them to other Tribes could be culturally inappropriate. Each Tribe has its own tribal laws,
customs, and traditions and the BIA must be respectful of this. The intent ofthe initiative was to
ensure each Tribe had the necessary resources to develop innovative services to incorporate its

                                                                                               19
unique customs and traditions while addressing the needs of its community to combat
Methamphetamine abuse. Even if we benchmark these tribally driven programs in one area,
there is no guarantee they would be successful or appropriate for another Tribe.

Responsible Party: Chief, Division of Human Servic..;s

Recommendation #7
Develop a performance plan that includes outcome-based goals and measures that can be used in
BIA's streamlining efforts and decision-making process.

Response:
Indian Affairs concurs with recommendation number 7.

The Division of Human Services will develop a p~rformance plan with outcome-based goals and
measures within six months. The Division of Human Services will then work to implement the
outcome-based goals and measures identified in the performance plan after consultation with
tribes. The implementation will also require the program to gather baseline data related to the
goals and measures developed. It will take approximately 18 to 24 months for the Division of
Human Services to fully implement new outcome based performance goals and measures. It is
also important to note, that the BIA's streamlining efforts are in its final stages for
implementation, and likely to be complete before the Division of Human Services' develop its
draft performance plan. It is unrealistic at this time, to utilize the performance plan in the BIA's
streamlining efforts.

Responsible Party: Chief, Division of Human Services
Target Date: Develop a Draft Plan: July 31,2013
              Fully Develop a Performance Plan, November 30,2014




                                                                                                 20
Appendix 4:
Status of Recommendations
In response to our draft report BIA concurred with Recommendations 1 through
5, and 7. BIA did not concur with Recommendation 6. We consider
Recommendations 1 through 5, and 7 resolved but not implemented. We request
reconsideration of and additional information concerning Recommendation 6. The
table below summarizes the status of the recommendations.



    Recommendations                   Status             Action Required


                                                      No further response to
                                                      the Office of Inspector
                                                      General is required.
                              Resolved but not        The recommendations
           1 – 5, 7
                              implemented.            will be referred to the
                                                      Assistant Secretary for
                                                      Policy, Management and
                                                      Budget for tracking.


                                                      Reconsider
                                                      recommendation and
                              Recommendation
                                                      provide a plan for
                              unresolved. Request
              6                                       completing the action,
                              reconsideration and
                              additional information. including target dates
                                                      and official (s)
                                                      responsible.




                                                                           21
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
